                              -   *-   -   " ~Lull--   ---              .lUI              -4   ru   a   rlyA     IgjUU Z


 JEf 1325.8
  (6-89)
EFG (07.90)


United States Government                                                                            Department of Energy


Memorandum
          DATE:     SEP 2 2 2003
     REPLY TO:      IG-34 (A03TG049)                                           Audit Report No.: OAS-L-03-21
      sueJEcT:      Evaluation of "The Federal Energy Regulatory Commission's Cyber Security Program-2003"
              TO:   Chairman, Federal Energy Regulatory Commission


                    The purpose of this report is to inform you of the results of our evaluation of the
                    Federal Energy Regulatory Commission's (Commission) cyber security program. The
                    evaluation was initiated in July 2003, and our fieldwork was conducted through
                    September 2003. Our methodology is described in the attachment to this report.

                    INTRODUCTION AND OBJECTIVE

                    As with other Federal organizations, the Commission is increasing its focus on the
                    electronic delivery of information and services and plans to spend $27 million in Fiscal
                    Year (FY) 2003 on information technology to support its energy markets mission. As
                    required by the President's Management Agenda, the Commission recently began a
                    series of initiatives to. develop and implement web-based applications to improve the
                    energy regulatory process and streamline internal activities. These networked systems
                    increase the risk that sensitive and critical data could be compromised or lost as various
                    applications are accessed through the Internet. Increasingly, "hackers" attempt to
                    exploit vulnerabilities and corrupt valuable government information technology
                    resources.

                    In response to the continuing threat to Federal information resources, Congress enacted
                    the Federal Information Security Management Act (FISMA) in 2002 to ensure that all
                    organizations develop and maintain adequate cyber security controls to protect
                    information resources. As required by FISMA, the Office of Inspector General
                    performed an independent evaluation to determine whether the Commission's
                    unclassified cyber security program protected data and information systems.

                    CONCLUSIONS AND OBSERVATIONS

                    The Commission had made significant progress in resolving weaknesses reported
                    during our 2002 evaluation. However, we observed that plans for maintaining or
                    resuming critical operations in the event of an emergency or disaster had not been
                    completed.

                    -We found that the Commission had developed a comprehensive process for tracking
                    and reporting the status of all previously identified cyber security weaknesses. We also
                  --                          .                        -   ruz   VPA        WU03




                                             2


noted that the Commission had taken the following action to correct several weaknesses
identified in 2002:

      * The roles and authorities of the Chief Information Officer were clarified to
        include the development and implementation of a Commission-wide cyber
         security protection program;
      * The Commission required all of its employees to receive cyber security
        awareness training. Furthermore, a core curriculum was developed for the
        individuals with significant security responsibilities;
      * Several configuration management weaknesses were addressed, including
        maintaining current software updates, correcting the configuration of remote
        access and file transfer services, and correcting system server configurations to
        restrict unauthorized access; and,
      * The Management, Administrative and Payroll System application was upgraded
        to enforce strengthened password policies.

Since our evaluation did not reveal new weaknesses and the Commission continues to
make progress on correcting remaining problems, we made no new recommendations.
We appreciate the cooperation of your staff. No res    e is required to this report.



                                           Rickey   . Hass, Director
                                           Science, Energy, Technology,
                                             and Financial Audits
                                           Office of Audit Services
                                           Office of Inspector General

Attachment

cc:       Executive Director, FERC
          Chief of Staff, DOE
          Chief Information Officer, DOE
                                                                             Attachment



SCOPE AND METHODOLOGY

We performed our evaluation between July and September 2003. Our evaluation was
primarily focused on the results of the Commission's corrective actions during FY 2003
to address previously identified weaknesses. In addition, we reviewed the
Commission's progress in implementing its plan of action and milestones (POA&M)
process.

We satisfied our objective by reviewing applicable laws and regulations pertaining to
cyber security and information technology resources and reviewing the Commission's
overall cyber security program management policies, procedures, and practices. In
addition, we reviewed the Commission's corrective actions and their results to address
previously reported weaknesses from prior cyber security evaluations. The review was
performed in conjunction with the annual audit of the Department's Consolidated
Financial Statements, utilizing work performed by KPMG LLP, the Office of Inspector
General contract auditor. Their review included analysis and testing of general and
application controls for systems and a review of system configurations in order to
follow up on the status of previously reported weaknesses.

We evaluated the Commission's implementation of the Government Performance
Results Act of 1993 related to the establishment of performance measures for cyber
security. We did not rely solely on computer-processed data to satisfy our objectives.
Because our review was limited, it would not have necessarily disclosed all internal
control deficiencies that may have existed at the time of our review.

The review was conducted in accordance with generally accepted Government auditing
standards for performance audits and included tests of internal controls and compliance
with laws and regulations to the extent necessary to satisfy the objectives. We held an
exit conference with the management on September 16, 2003.
                                       -"                    "*---"
                                                                 I      n    ui'              -.   .UiUKS k1V1YA          1A005




                                     U. S. Department of Energy Office of Inspector General




                                                                                              FY03 IT Security Spending
Bureau Name                                                                                    ($ In thousands)

(No IG response required for this question)


Agency Total
__--_________   -____
                  ___ __   .   __   __      i   u              v     ~     Lt^IJVIYni                -4 rurnO rIVEA                  19006




                                         U. S. Department of Energy Office of Inspector General
                      Independent Evaluation of FERC Unclassified Information Security - 2003




                                                                                                       FY03 Contractor
                                                                                                        Operations or
                                                                     FY03 Prorams     FY03 Systems        Facilities
                                                                    Total  Number   Total   Number   otal      Number
                                                                    Number Reviewed Number Reviewed Number     Reviewed
     Bureau Name
     Federal Energy Regulatory Commission (FERC)


    Agency Total                                                                                                              0


    b. For operations and assets under their control, have agency
    program officials and the agency CIO used appropriate
    methods (e.g., audits or inspections, agreed upon IT security
    requirements for contractor provided services or services
    provided by other agencies) to ensure that contractor
    provided services or services provided by another agency for
    their program and systems are adequately secure and meet
    the requirements of FISMA. OMB policy and NIST guidelines,
    national security policy, and agency policy?                            yes
                                                                    National Institute of Standards and Technology (NIST) 800-26
                                                                    Security Self Assessment Guide for Information Technology (IT)
    c. If yes, what methods are used? If no, please explain why.    Systems. Office of Inspector General (OIG) follow-up review.
     . Did the agency use the NIST self-assessment guide to
    conduct Its reviews?                                                    Yes
    e. If the agency did not use the NIST self-assessment guide
    and instead used an agency developed methodology, please
    confirm that all elements of the NIST guide were addressed In
    the agency methodology.                                                 N/A

    f. Provide a brief update on the agency's work to develop an    FERC completed its system Inventory and has a total of 64 IT
    Inventory of major IT systems.                                  systems.
                             - -*                     .»VIu                                 -» ruta    ME vA                 L00OO7




                             U. S. Department of Energy Office of Inspector General
               Independent Evaluation of FERC Unclassified Information Security - 2003




                                                                         FY03 Material Weaknesses
                                                              Total Number                                      POA&Ms
                                                Total         Repeated from Identify and Describe Each Material developed?
                                               Number             FY02                  Weakness                   Y/N
Bureau Name


FERC                                              0                 0


Agency Total                                      0                 0        _
                 -       .iuii
                       -UMb                                         *_'--*n--                   ---   riVEA       IajUUd




                                       U. S. Department of Energy Office of Inspector General
                     Independent Evaluation of FERC Unclassified Information Security - 2003




Agency program officials develop, implement, and manage the plan of action and
milestones (POA&M) for every system that they own and operate (systems that
support their programs) that has an IT security weakness.                                   X

Agency program officials report to the Chief Information Officer (CIO) on a regular
basis (at least quarterly) on their remedlation progress.                                   X
Agency CIO develops, implements, and manages POA&Ms for every system that
they own and operate (systems that support their programs) that has an IT
security weakness.                                                                          X

The agency CIO centrally tracks and maintains all POA&M activities on at least a
quarterly basis.                                                                            X
The POA&M Is the authoritative agency and IG management tool to Identify and
monitor agency actions for correcting Information and IT security weaknesses.               X
System-level POA&Ms are tied directly to the system budget request through the
IT business case as required In Office of Management and Budget (OMB) budget
guidance (Circular A-11) to ie the justification for IT security funds to the budget
process.                                                                                                      X
Agency IGs are an Integral part of the POA&M process and have access to
agency POA&Ms.                                                                              X

The agency's POA&M process represents a prioritizatlon of agency IT security
weaknesses that ensures that significant IT security weaknesses are addressed In
a timely manner and receive, where necessary, appropriate resources.                        X
              ·- ·----   _-   ~
                              -----   ··   ~I~I   uslvl                   ,rU~b       rCIVEA                   ig) 00




              U. S. Department of Energy Office of Inspector General
Independerit Evaluation of FERC Unclassified Information Security - 2003

                                                              The Commission's Cyber Secudty Action
                                                              Plan sets forth roles and responsibilities for
                                                              the cyber security program and the Federal
                                                              Information Security Management Act of
                                                              2002 (FISMA). Program elements are
                                                                responsible for implementing cyber security
                                                              policy. The CIO has responsibility for
                                                              program monitoring, oversight, and
                                                              enforcement.

                                                              No.

                                                              The Cyber Security Action Plan includes
                                                              cyber security provisions applicable to all of
                                                              the Commission's Information systems,
                                                              including systems In the development and
                                                              maintenance phase. However, the
                                                              Commission has not established any
                                                              performance measures or metrics that
                                                              would ensure the security plan is practiced
                                                              throughout the lifecydcle of the system.


                                                              During the reporting period, the
                                                              Commission approved a site-wide Cyber
                                                              Security Action Plan. However, Individual
                                                              systems do not have cyber security plans.


                                                              No, the agency did not fully Integrate its IT
                                                              security program with its critical
                                                              Infrastructure protection responsibilities.
                                                              Work is ongoing in this area. The
                                                              Commission does not currently have an
                                                              approved continuity of operations plan or
                                                              tested disaster recovery plans.

                                                              No, the agency does not have separate
                                                              staff devoted to other security programs.
                                                              There is minimal duplication of costs or
                                                              effort within the Commission's various
                                                              security programs. It is a small agency
                                                              and some individuals do have multiple
                                                              responsibilities.
                                      -   _--   -A-           ...    iIuII                         -*   frUKSMbIVA               Il   010




                                    U. S. Department of Energy Office of Inspector General
                                                                                  - 2003
                 Independent Evaluation of FERC Unclassified Information Security




a. Has the agency fully Identified Its national critical operations and assets?               NA
b. Has the agency fully identified the Interdependencles and Interrelationships of those
nationally critical operations and assets?                                                    NA

c. Has the agency fully Identified Its mission critical operations and assets?               Yes

d. Has the agency fully Identified the interdependencies and Interrelationships of those
mission critical operations and assets?                                                                          No
e. Ifyes, describe the steps the agency has taken as a result of the review.
                                                                                           While the Cdmmission had identified
                                                                                           all of Its ITsystems, it had not fully
                                                                                           identified Interdependencies and
                                                                                           Interrelationships of mission critical
                                                                                           operations and assets because work
                                                                                           on the Continuity of Operations Plan Is
f. If no, please explain why.                                                              not complete.

NA = Not applicable because FERC has no national critical operations or assets.
.-.      .-      --.
                 -----           ..   „      Uf                     ±o±l   i    uis
                                                                                 '                       F
                                                                                                     *KURS       F1 VEA             1o011




                                            U. S. Department of Energy Office of Inspector General
                          Independent Evaluation of FERC Unclassified Information Security - 2003




                                                                                 The Director for Security, Systems Assurance & Information
      a. Identify and describe the procedures for external reporting to law      Management (SSA&IM) coordinates computer security
      enforcement authorities and to the Federal Computer Incident Response      efforts within the agency and coordinates with law
      Center (FedCIRC).                                                          enforcement authorities and FedCIRC.
      b. Total number of agency components or bureaus.
      c. Number of agency components with incident handling and response                                     1
      capability.
      d. Number of agency components that report to FedCIRC.                                                 1

      e. Does the agency and its major components share incident information                                 Yes
      with FedCIRC in a timely manner consistent with FedCIRC and OMB
      guidance?
      f. What is the required average time to report to the agency and FedCIRC                        Close of Business
      following an Incident?
      g. How does the agency, including the programs within major              While FERC's Cyber Security Action Plan briefly discusses
      components, confirm that patches have been tested and Installed in a     patches and FERC has a flowchart for the patch process,
      timely manner?                                                            FERC's IT documentation does not provide detailed
                                                                               procedures on monitoring or confirming the timely
                                                                               installation of security patches.

      h. Is the agency a member of the Patch Authentication and Distribution
      Capability operated by FedCIRC?                                                 Yes

      I. If yes, how many active users does the agency have for this service?                                3
      J. Has the agency developed and complied with specific configuration
      requirements that meet their own needs?                                         Yes
      k. Do these configuration requirements address patching of security
      vulnerabilities?                                                                Yes
       ~______________________________________
              -. -FURS                                    "'_             I                          kY1VEA             IJulz




                               U. S. Department of Energy Office of Inspector General
               Independent Evaluation of FERC Unclassified Information Security - 2003




                                                      Number of incidents reported      Number of Incidents reported
Bureau Name        Number of Incidents reported       externally to FedCIRC             externally to law enforcement


FERC                             762.976                              7                                 0
.......      -
             ............         .....                                 I-.                         * ruKS     l'iVtJA             LffU1
                                                                                                                                    ,




                                     U. S. Department of Energy Office of Inspector General
                   Independent Evaluation of FERC Unclassified Information Security - 2003




                                             d. Number                 f. Number of      g. Number of
                          c. Number of       of systems                systems with      systems for                     I. Number of
                          systems            that have    e. Number    security          which security h. Number of     systems for
                          assessed for       an up-to-    of systems   control costs     controls have systems with      which
                          risk and           date IT      certified    integrated into   been tested      a              contingency
                          assigned a level   security     and          the life cycle    and evaluated contingency       plans have
                b. Total  or risk            plan         accredited   of the system     in the last year plan           been tested
 a. Bureau      Number of  No. of   % of
 Name           Systems   Systems Systems     No.   %      No.   %       No.     %        No.       %    No.       %      No.     %


 FERC              64        59       92      0     0      0     0       0       0              1   1    0         0       0      0



 Agency Total      64        59       92      0     0      0     0       0       0         1        1    0         0       0      0
                          _ *   --          -         -IVC.IUII   "-                                 -.   kUf(b   i'IVEA             1014




                                     U. S. Department of Energy Office of Inspector General
              Independent Evaluation of FERC Unclassified Information Security - 2003




                                                      ow does the agency      Has the agency CIO          Do agency POA&Ms
Has the agency CIO      Did the CIO evaluate the    CLO ensure that bureaus   appointed a senior          account for all known
maintained an agency-   performance of all agency   comply with the agency-   agency information          agency security
wide IT security        bureaus/components?         wide IT security          security officer per the    weaknesses Including all
program? Y/N            Y/N                         program?                  requirements In FISMA?      components?

                                                    The Executive Director
                                                    centrally manages cyber
          Y                            Y            security.                            Y                           Y
                                                        w
                                                       ---       L- AL
                                                                    -  **     w
                                                                             IUI                  -*   riU1sM VlEA                   IJU015




                                   U. S. Department of Energy Office of inspector General
                                                             Information Security - 2003
                 Independent Evaluation of FERC Unclassified




                                                     Agency employees with
                                                     significant security
                                  T ot a l u m b r                                                                        Total costs for
Total     Ag     e                      "      e o   responsibilities that
number of         IT security          significant   received specialized                                                 providing
           ageny I trainin
                    FY03
                    FY03          w
                                  security-----      trann                                                                training in
aencyy'in
                                                     Number           Percentage Briefly escribe training provided        FY-3
In Y03     Number    Percentage   responsiblitles

                                                                                   Office of Personnel Management
                                                                                   Online Learning Karta library for IT
                                                                                   security and IT technical employees.
                                                                                   Also, the Commission has In-house
                                                                                   FISMA and NIST assessment
                                                                            87     training.                                  $14,000
              1032        78                  8              7
   1,316
                            U.S. Department of Energy Office of Inspector General
                                                                                  Security - 2003
               Independent Evaluation of FERC Unclassified Information




                                   Did the agency program offical       Did the agency CIO plan and        Are   IT security costs
                                   plan and budget for IT security      budget for IT security and          reported In the agencys
            Number of business
            cases submitted to     and Integrate security into all of   Integrate security into all of their exhibit 53 for each IT.
                                   their business cases? Y/N            business cases? Y/N                  Investment? Y/N
Bureau Name OMB In FY05


                                                                                                        Yes. However, in one
                                                                                                        Instance FERC is reporting
                                                                                                        an IT Investment In a
                                                                        Yes. However,  one of the       system owned by another
                                   Yes. However, one of the
                                                                        business cases did not show     agency. FERC does not
                                   business cases did not show
                                   evidence of budgeting for cyber      evidence of budgeting for cyber show any IT security costs
             3 Submitted to OMB
             on September 9, 2003. security.                            security.                       for this Investment
FERC
